<html>
<title> - INTEROPERABLE COMMUNICATIONS: ASSESSING PROGRESS SINCE 9/11</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
      INTEROPERABLE COMMUNICATIONS: ASSESSING PROGRESS SINCE 9/11

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2014

                               __________

                           Serial No. 113-89

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                       
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
   93-647 PDF                     WASHINGTON : 2015             
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Curtis Clawson, Florida
                   Brendan P. Shields, Staff Director
                   Joan O'Hara, Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Susan W. Brooks, Indiana, Chairwoman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Steven M. Palazzo, Mississippi,      Yvette D. Clarke, New York
    Vice Chair                       Brian Higgins, New York
Scott Perry, Pennsylvania            Bennie G. Thompson, Mississippi 
Mark Sanford, South Carolina             (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
              Kerry Kinirons, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
                   
                   
                   
                                (II)
                   
                   
                   
                   
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Susan W. Brooks, a Representative in Congress From 
  the State of Indiana, and Chairwoman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     6

                               Witnesses

Rear Admiral Ronald Hewitt, USCG (Ret.), Director, Office of 
  Emergency Communications, U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Mr. TJ Kennedy, Acting General Manager, First Responder Network 
  Authority:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Mr. Mark A. Grubb, Director, Delaware Department of Safety and 
  Homeland Security, Division of Communications:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
  


      INTEROPERABLE COMMUNICATIONS: ASSESSING PROGRESS SINCE 9/11

                              ----------                              


                       Tuesday, November 18, 2014

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:23 a.m., in 
Room 311, Cannon House Office Building, Hon. Susan W. Brooks 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Brooks and Payne.
    Mrs. Brooks. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. The 
subcommittee is meeting today to receive testimony regarding 
the state of interoperable communications.
    Good morning. I first want to thank our witnesses for their 
flexibility in scheduling this hearing. We had originally 
planned to hold this hearing in September, if you recall, but 
we had to postpone it due to a joint session of Congress with 
the president of Ukraine. I appreciate you working with me and 
our staff to reschedule this important hearing today. Also want 
to thank you for accommodating us with respect to the delay 
this morning.
    Unfortunately, communication challenges persisted during 
Hurricane Katrina. But we know much has changed since 9/11 and 
Hurricane Katrina, because it exposed significant gaps in 
communications capabilities. Congress then established the 
Office of Emergency Communications, known as OEC, in the Post-
Katrina Emergency Management Reform Act to coordinate Federal 
interoperable communications programs and conduct outreach to 
support emergency response providers.
    OEC has worked with States on the development of State-wide 
communication interoperability plans and, in 2008, issued the 
first National Emergency Communications Plan, which included 
goals for achieving communications capabilities at the State 
and local levels.
    The Federal Emergency Management Agency's Grant Programs 
Directorate reports that States and localities have invested 
more than $5 billion in preparedness grant funding to enhance 
their communications capabilities. These grants have been used 
by the States for planning, training, exercises, equipment, and 
to fund State-wide interoperability coordinator positions.
    Congress finally addressed the 9/11 Commission's 
recommendation to allocate the D Block to public safety with 
the passage of the Middle Class Tax Relief and Job Creation Act 
of 2012, establishing the First Responder Network Authority, 
known as FirstNet. This was long overdue, and as I discussed 
with former 9/11 Commissioner Chairman Tom Kean at a hearing 
the Committee on Homeland Security held earlier this year on 
the 10-year anniversary of the release of the report.
    These are all important steps. In fact, they have been 
critically important steps, but we know that challenges still 
remain and more work must be done. Despite all of these 
programs, all of these investments, interoperable 
communications continue to be a challenge during disaster 
response, as evidenced during the response in Hurricane Sandy 
and the Navy Yard shooting. We must continue to work to ensure 
first responders have the tools they need to communicate.
    I am pleased that, at the urging of myself and Ranking 
Member Payne, last week OEC released an updated National 
Emergency Communications Plan that takes into account the 
changes in technology since the first plan. I am looking 
forward today to hearing from Admiral Hewitt about this new 
plan--and congratulations on the release of the plan--the 
outreach he conducted with stakeholders during the plan's 
development, and upcoming efforts to implement the plan's five 
goals.
    I am also looking forward to hearing more about FirstNet's 
efforts to engage with States on the development of the Nation-
wide public safety broadband network. This is a huge 
undertaking. I am interested in learning about the progress to 
date and the plans for the future.
    I want to thank our witnesses for being here today as we 
collaboratively work together to ensure our Nation's first 
responders have the tools they need to communicate both in 
their daily service and when disaster strikes.
    We thank each of you for your service to our country, for 
your service to your communities.
    [The statement of Chairwoman Brooks follows:]
                Statement of Chairwoman Susan W. Brooks
    I first want to thank our witnesses for their flexibility in the 
scheduling of this hearing. We had originally planned to hold it in 
September, but had to postpone it due to a joint session of Congress 
with the president of Ukraine. I appreciate you working with me and my 
staff to reschedule this important hearing today.
    As you well know, the 9/11 Commission report examined the 
communications failures first responders experienced at the World Trade 
Center, Pentagon, and in Shanksville, Pennsylvania and recommended the 
allocation of radio spectrum to public safety for the creation of an 
interoperable public safety communications network. Unfortunately, 
communications challenges persisted during Hurricane Katrina.
    Much has changed since 9/11 and Hurricane Katrina exposed 
significant gaps in communications capabilities.
    Congress established the Office of Emergency Communications (OEC) 
in the Post-Katrina Emergency Management Reform Act to coordinate 
Federal interoperable communications programs and conduct outreach to 
support emergency response providers.
    OEC has worked with States on the development of State-wide 
Communication Interoperability Plans and in 2008 issued the first 
National Emergency Communications Plan, which included goals for 
achieving communications capabilities at the State and local levels.
    The Federal Emergency Management Agency's Grant Programs 
Directorate reports that States and localities have invested more than 
$5 billion in preparedness grant funding to enhance their 
communications capabilities. These grants have been used for planning, 
training, exercises, equipment, and to fund State-wide Interoperability 
Coordinator positions.
    Congress finally addressed the 9/11 Commission's recommendation to 
allocate the D Block to public safety with the passage of the Middle 
Class Tax Relief and Job Creation Act of 2012, establishing the First 
Responder Network Authority (FirstNet). This was long overdue, as I 
discussed with former 9/11 Commission Chairman Tom Kean at a hearing 
the Committee on Homeland Security held earlier this year on the 10-
year anniversary of the release of their report.
    These are all important steps. But we know that challenges remain 
and more work must be done.
    Despite all these programs and investments, interoperable 
communications continues to be a challenge during disaster response, as 
evidenced during the response to Hurricane Sandy and the Navy Yard 
shooting. We must continue to work to ensure first responders have the 
tools they need to communicate.
    I am pleased that, at the urging of myself and Ranking Member 
Payne, last week OEC released an updated National Emergency 
Communications Plan that takes into account the changes in technology 
since the first plan. I am looking forward to hearing from Admiral 
Hewitt about this new plan, the outreach he conducted with stakeholders 
during the plan's development, and upcoming efforts to implement the 
plan's five goals.
    I am also looking forward to hearing more about FirstNet's efforts 
to engage with States on the development of the Nation-wide public 
safety broadband network. This is a huge undertaking and I am 
interested in learning about the progress to date and the plans for the 
future.
    I want to thank our witnesses for being here today as we 
collaboratively work together to ensure our Nation's first responders 
have the tools they need to communicate both in their daily service and 
when disaster strikes.

    Mrs. Brooks. With that, I now recognize the gentleman from 
New Jersey, Mr. Payne, for any opening statements he may have.
    Mr. Payne. Thank you, and good morning. I would first like 
to thank Chairwoman Brooks for holding today's hearing on 
interoperable communications. I believe it will be our last 
hearing together, but I want to thank you for your leadership 
and your cooperation, working in a bipartisan manner on these 
issues.
    Representing New Jersey's 10th Congressional District, our 
constituents were among the first to respond to the attacks on 
the Twin Towers on September 11. On that terrible day, first 
responders from multiple jurisdictions across disciplines 
heroically put themselves in harm's way to save others. 
Responding to a disaster of this scale was hard enough. The 
absence of reliable, effective communications during the 
response further complicated matters.
    In the years since 9/11, the Federal Government, along with 
the State and local governments, has made significant 
investments toward achieving interoperability. During Hurricane 
Sandy, the response we saw was an improvement in cross-
discipline communications. Police officers were able to 
communicate with firefighters across New York and with other 
officials in New Jersey, closing airports.
    However, cross-jurisdiction communications challenges were 
evident. Specifically, emergency officials that came to provide 
mutual aid could not communicate with local first responders on 
their own radios. After the storm, the Department of Homeland 
Security, in coordination with the National Council of State-
wide Interoperability Coordinators, ``NCSWIC,'' convened a 
panel to identify lessons learned.
    Among the recommendations generated were: Increased cross-
border exercises and aligning State-wide interoperability 
coordinators with the communications emergency support function 
leads.
    Although challenges remain, I was pleased to shine a 
positive light on the progress made, when in June, at my 
invitation, the subcommittee convened a hearing to look at 
Super Bowl XLVIII, which was held outside of Newark, New 
Jersey. At that hearing, the committee learned about the 
significant progress that has been made in addressing the 
lessons learned from Hurricane Sandy.
    Indeed, interoperability communications was one area that 
many Federal officials and local first responders highlighted. 
I want to thank the Office of Emergency Communications for its 
assistance in helping first responders in New Jersey, and their 
partners in New York, plan, coordinate, and execute effective 
interoperability plans for that event.
    That said, the progress made is in jeopardy. In recent 
years, States could rely on Interoperable Emergency 
Communications Grant Program to support their State-wide 
Interoperability Coordinators, SWIC, and other communication 
governance structures. But that program has been eliminated. 
Other sources for Federal support are scarce, particularly 
since the State Homeland Security Grant Program and Urban Areas 
Security Initiative are not funded at the levels they once 
were.
    When I joined this panel last year, I was surprised to 
learn that my State of New Jersey did not have a SWIC. Now, I 
understand that a SWIC has been named, but it is one of many 
hats worn by this official.
    The challenge of funding SWIC is not unique to New Jersey. 
Other States are facing the same funding challenge and, as a 
result, there is very real risk that important governance 
structures that have taken over a decade to build will be 
abandoned.
    That is why today I am introducing the State-wide 
Interoperable Communications Enhancement Act, or the SWIC 
Enhancement Act. This legislation will ensure that States 
maintain the progress we have made towards achieving 
interoperability by preserving the governing structures 
necessary to make the communications technology work. These 
structures are key to achieving interoperability using existing 
technology and the networks and to realizing the full potential 
of the National public safety broadband network.
    Before I close, I want to make clear: Interoperability 
challenges are not unique to State and local governments. 
Federal agencies share the same struggles. In November 2012, 
the Department of Homeland Security Office of Inspector General 
reported that DHS lacked a cross-component interoperable 
communications capability.
    I introduced H.R. 4289, the DHS Interoperability 
Communications Act--with Chairwoman Brooks--to require the 
Department to put in place the policies and governance 
structure necessary to achieve interoperability between the 
Department's components. H.R. 4289 was passed unanimously by 
the House of Representatives earlier this year, and I am 
hopeful that the Senate will consider the bill before this 
Congress closes.
    I want to thank the witnesses for being here today, and I 
look forward to your testimony. With that, Madam Chairwoman, I 
yield back.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                           November 18, 2014
    I would like to thank Chairwoman Brooks for holding today's hearing 
on interoperable communications. Representing New Jersey's 10th 
Congressional District, I have constituents who were among first to 
respond to the attacks on the Twin Towers on September 11. On that 
terrible day, first responders from multiple jurisdictions--across 
disciplines--heroically put themselves in harm's way to save others.
    Responding to a disaster of this scale was hard enough. The absence 
of reliable, effective communications during the response further 
complicated matters. In the years since 9/11, the Federal Government--
along with State and local governments--has made significant 
investments toward achieving interoperability.
    During the Hurricane Sandy response, we saw improvement in cross-
discipline communication.
    Police officers were able to communicate with firefighters across 
New York and with officials in New Jersey closing airports. However, 
cross-jurisdiction communications challenges were evident.
    Specifically, emergency officials that came to provide mutual aid 
could not communicate with local first responders on their own radios.
    After the storm, the Department of Homeland Security, in 
coordination with the National Council of State-wide Interoperability 
Coordinators (NCSWIC), convened a panel to identify lessons learned.
    Among the recommendations generated were: Increased cross-border 
exercises and aligning State-wide Interoperability Coordinators with 
the Communications Emergency Support Function leads.
    Although challenges remained, I was pleased to shine a positive 
light on the progress made, when in June, at my invitation, the 
subcommittee convened a hearing to look at Super Bowl XLVIII (48), 
which was held just outside Newark, New Jersey.
    At that hearing, the Committee learned about the significant 
progress that has been made in addressing the lessons learned from 
Hurricane Sandy. Indeed, interoperable communications was one area that 
many Federal officials and local first responders highlighted.
    I want to thank the Office of Emergency Communications for its 
assistance in helping first responders in New Jersey, and their 
partners in New York, plan for, coordinate, and execute effective 
interoperability plans for that event. That said, the progress made is 
in jeopardy.
    In recent years, States could rely on the Interoperable Emergency 
Communications Grant Program to support their State-wide 
Interoperability Coordinators (SWIC) and other communications 
governance structures. But that program has been eliminated.
    And other sources for Federal support are scarce particularly since 
the State Homeland Security Grant Program and the Urban Area Security 
Initiative are not funded at the levels they once were.
    When I joined this panel last year, I was surprised to learn that 
my home State of New Jersey did not have a SWIC. Now, I understand that 
a SWIC has been named, but it is one of many hats worn by this 
official.
    The challenge of funding SWIC is not unique to New Jersey.
    Other States are facing the same funding challenge and, as a 
result, there is a very real risk that important governance structures 
that have taken over a decade to build will be abandoned.
    That is why, today, I am introducing the State-wide Interoperable 
Communications Enhancement Act, or the SWIC Enhancement Act.
    This legislation will ensure that States maintain the progress we 
have made toward achieving interoperability by preserving the 
governance structures necessary to make the communications technology 
work.
    These structures are key to achieving interoperability using 
existing technology and networks and to realizing the full potential of 
the Nation-wide Public Safety Broadband Network.
    Before I close, I want to make clear: Interoperability challenges 
are not unique to State and local governments. Federal agencies share 
the same struggles.
    In November 2012, the Department of Homeland Security Office of 
Inspector General reported that DHS lacked a cross-component 
interoperable communications capability.
    I introduced H.R. 4289, the DHS Interoperable Communications Act--
with Chairwoman Brooks--to require the Department to put into place the 
policies and governance structure necessary achieve interoperability 
between the Department's components.
    H.R. 4289, was passed unanimously by the House earlier this year 
and I am hopeful that the Senate will consider the bill before this 
Congress closes.

    Mrs. Brooks. Other Members of our subcommittee are reminded 
that opening statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    As a former volunteer firefighter, I know that operable and 
interoperable communications are essential to ensuring that first 
responders can do their jobs safely and effectively. After the 
September 11 attacks, however, the 9/11 Commission identified 
interoperable communications among our Nation's most significant 
vulnerabilities in disaster response.
    Despite initial Federal investments in the years following the 
attacks, interoperable communications challenges plagued the response 
to Hurricane Katrina, exacerbating the devastation.
    In response to continued interoperability challenges realized 
during the storm, Congress created the Office of Emergency 
Communications at the Department of Homeland Security to bolster State 
and local capabilities to plan, coordinate, train, and evaluate 
interoperable communications efforts.
    Since its inception, the Office of Emergency Communications has 
worked to help State and local governments build the governance 
infrastructures necessary to develop robust interoperable 
communications capabilities.
    An essential component of that governance infrastructure are State-
wide Interoperability Coordinators, or SWICs. SWICs have spearheaded 
efforts to develop State Communications Interoperability Plans, 
coordinate communications projects, and maintain governance structures.
    With guidance from OEC, SWICs--together with State-wide 
Interoperable Governing Bodies--have built the communications teams 
that facilitated successful results to events from the Boston Marathon 
bombings to the tornadoes in Moore, Oklahoma.
    Although this progress is encouraging, I was troubled that the 2014 
National Preparedness Report indicated that 1 in 7 territories 
identified operational communications as an area at greatest risk of 
decline.
    Since being appointed to serve on the then-Select Committee on 
Homeland Security during the 108th Congress, I have made helping the 
Nation resolve its interoperability challenges one of my top 
priorities.
    Over a decade--and billions of dollars of investment--later, we 
have not yet made Nation-wide interoperability a reality. But we have 
made progress. Losing ground is not an option. In this austere budget 
environment, we simply cannot afford to go backward.
    That is why I am pleased to support Ranking Member Payne, Jr.'s 
State-wide Interoperability Coordinator Enhancement Act. The SWIC 
Enhancement Act will ensure that States preserve the planning and 
coordination infrastructure that has been developed with previous 
Federal grant investments.
    I look forward to working with Ranking Member Payne, Jr. to make 
sure Congress does its part to preserve the progress made toward 
achieving interoperability, and to ensure that the progress made is 
leveraged as technology evolves.
    Along those lines, I am eager to learn about the progress FirstNet 
is making in its effort to build out the Nation-wide Public Safety 
Broadband Network.
    If executed well, the new Network has the potential to resolve 
challenges that have undermined previous interoperability efforts--
while being flexible enough to integrate new technologies.
    I understand that FirstNet has completed a series of State 
consultations, and its recent Request for Information and Public Notice 
garnered significant public participation.
    I am eager to learn about the State consultation process, and about 
the feedback to the RFI and Public Notice. In particular, I am 
interested to learn about feedback related to financing the Nation-wide 
Public Safety Broadband Network.
    With all the time, money, and resources invested into this project 
at the Federal, State, and local level, sustainability is key to its 
success. Additionally, I am interested in learning how FirstNet is 
coordinating with the Office of Emergency Communications to conduct 
outreach to State and local stakeholders.

    Mrs. Brooks. We are pleased to have a very distinguished 
panel before us today on this important topic. Now, to begin 
those introductions, Rear Admiral Ronald Hewitt assumed the 
duties as director of the Department of Homeland Security's 
Office of Emergency Communications on November 13, 2012. TJ 
Kennedy is currently serving as acting general manager of the 
First Responder Network Authority, assuming the position after 
the position of General Manager Bill D'Agostino. He joined 
FirstNet as its deputy general manager on July 29, 2013. Mark 
Grubb serves as the director of the Delaware Division of 
Communications and is responsible for the operation and 
maintenance of Delaware's State-wide 700- and 800-megahertz 
public safety radio systems. In this capacity, he serves as the 
State-wide interoperability coordinator, SWIC. He also serves 
as the chair in the National Council of State-wide 
Interoperability Coordinators and is testifying on their behalf 
today.
    Thank you for getting up at 5:30 and coming here to 
Washington, DC, today. So we want to welcome you all. The 
witnesses' full written statements will appear in the record, 
and the Chairwoman now recognizes Admiral Hewitt for 5 minutes.

STATEMENT OF REAR ADMIRAL RONALD HEWITT, USCG (RET.), DIRECTOR, 
OFFICE OF EMERGENCY COMMUNICATIONS, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Admiral Hewitt. Thank you, Chairwoman Brooks, Ranking 
Member Payne, and distinguished Members of the subcommittee. It 
is a pleasure for me to be here today to provide you an 
overview of what the Office of Emergency Communications has 
done since our creation 7 years ago to improve emergency 
communications interoperability Nation-wide.
    We released the National Emergency Communications Plan in 
2008, which was the first strategic plan developed by public 
safety and was the roadmap we used for the past 6 years. The 
plan stressed the fundamental factors for successful 
interoperability, which include governance, planning, standard 
operating procedures, training, and exercises.
    To implement the goals of the plan, State-wide 
interoperability coordinators and State-wide interoperability 
governance bodies were established in all 56 States and 
territories. These governance bodies were instrumental in 
developing State-wide communications interoperability plans 
that were aligned to the National plan. We also provided over 
1,000 technical assistance visits and trained over 5,000 
communications leaders and technical technicians to help 
implement the State plans.
    These efforts have helped save lives. Just last year, our 
Nation faced another tragedy when two improvised explosive 
devices detonated near the finish line of the Boston Marathon. 
Sadly, the bombs killed 3 people and injured nearly 300 more, 
but nearly all the after-action reports agreed that greater 
number of lives could have been lost if not for the successful 
response to the bombings, which included effective emergency 
communications.
    Our role in preparing for the event began in 2010, when as 
part of Goal 1 assessment of the National plan, OEC observed 
that communications capabilities during the marathon that year. 
Our assessment recommended integrating communications into the 
event's overall command-and-control functions. We provided 
technical assistance and trained additional communications unit 
leaders and technicians. We also facilitated State-wide 
planning workshops to ensure the public safety entities 
understood the need and the roadmap to achieve 
interoperability. This focus on the fundamentals came into play 
immediately, as the responders treated the wounded, moved 
people to safety, and secured the area using public safety 
radio systems that kept up with the demand throughout the 
event.
    But even with these program successes, we cannot become 
complacent, because the emergency communications landscape is 
changing. Next-generation 9-1-1 will bring text and information 
services to the Nation's public safety answering points or 9-1-
1 centers. FEMA is improving public alerts and warnings to 
provide geographic-specific information to citizens. One of the 
most exciting changes that will impact the way first responders 
communicate is the Nation-wide public safety broadband network. 
I am honored to sit next to my fellow panelist, TJ Kennedy, 
from FirstNet today.
    To account for all these changes, the public safety 
community updated the National Emergency Communications Plan, 
and I am pleased to announce that the Secretary of the 
Department of Homeland Security signed the plan earlier this 
month. The 2014 plan will be the road map to achieve emergency 
communications interoperability in this new landscape.
    Similarly to the way we executed the 2008 plan, we rely on 
my fellow panelist, Mark Grubb, and all his fellow State-wide 
interoperability coordinator to update their governance 
structures and their State plans to align with the 2014 
National plan. Additionally, we will update our technical 
assistance, training programs, and Federal grant guidance to 
ensure these plans are successfully implemented.
    In conclusion, we will continue to concentrate on the 
fundamentals of governance, planning, standard operating 
procedures, training, and exercises, for effective emergency 
communications, even with technology 100 years from now, can 
never exist without them. This subcommittee and committee have 
been excellent partners in this effort, and I look forward to 
continuing the conversation with you about how best to continue 
the National effort.
    Once again, I thank you, Chairwoman Brooks, Ranking Member 
Payne, and Members of this subcommittee for allowing me to 
testify today.
    [The prepared statement of Admiral Hewitt follows:]
                  Prepared Statement of Ronald Hewitt
                           November 18, 2014
    Thank you, Chairman Brooks, Ranking Member Payne, and distinguished 
Members of the subcommittee. It is a pleasure to discuss the Department 
of Homeland Security's (DHS) collaborative efforts to improve 
interoperable communications for emergency response providers and 
Government officials. Thirteen years after the attacks of September 11, 
2001, there still is no shortage of reminders of the need for an 
effective and efficient emergency response framework to manage 
incidents and restore essential services in the aftermath of a 
disaster.
    A top priority for DHS continues to be improving the communications 
capabilities of those who are the first to arrive at the scene of a 
disaster site--the Nation's emergency responders. Public safety 
personnel must have access to reliable and instantaneous communications 
at all times to effectively coordinate response and recovery 
operations. The Department recognizes that establishing emergency 
communications is not solely a technology problem that can be solved by 
equipment alone. All of the critical factors for a successful 
interoperability solution--governance, standard operating procedures, 
training and exercises, the integration of systems into daily 
operations, in addition to technology--must continue to be addressed 
through the collective work of our programs.
    Further, DHS believes that effective emergency communications 
require continued partnering with the millions of emergency responders 
who are the first to arrive on the scene of an incident, as well as the 
communications industry, non-governmental organizations, the general 
public, and citizens of affected communities. In addition, we continue 
to work closely and collaboratively with FirstNet as they pursue their 
mission of establishing a Nation-wide interoperable broadband network 
dedicated to public safety which will be an integral part of the 
continued evolution of effective public safety communications. We look 
forward to discussing our respective efforts and key accomplishments to 
make the Nation more secure and resilient to the threats and hazards 
which pose the greatest risk.
                   office of emergency communications
    The Office of Emergency Communications (OEC) was established within 
the National Protection and Programs Directorate's (NPPD) Office of 
Cybersecurity and Communications (CS&C) as part of the Congressional 
response to the communications challenges faced during the September 
11, 2001 terrorist attacks and Hurricane Katrina in 2005. Since its 
inception, OEC has been focused on improving the communication 
capabilities of the Nation's emergency responders. To that end, OEC 
coordinates policy and assists in the development and implementation of 
operable and interoperable emergency communications capabilities for 
emergency responders at all levels of government, including Federal, 
State, local, Tribal, and territorial.
    Since 2007, OEC has made progress in several key areas that enable 
emergency responders to interoperate in an all-hazards environment. In 
2008, OEC led the development of the first National Emergency 
Communications Plan (NECP). The Secretary recently signed an updated 
NECP that outlines wholesale updates to the initial plan and accounts 
for the significant changes that have taken place within the emergency 
communications landscape in the past 6 years.
    As an integral part of the development of the second NECP, earlier 
this year, OEC completed a comprehensive Nation-wide planning effort 
with more than 350 stakeholders from the emergency response community, 
which included significant feedback and coordination with the SAFECOM 
Executive Committee, the SAFECOM Emergency Response Council, and the 
National Public Safety Telecommunications Council. These stakeholder 
groups are comprised of National public safety association members, 
State and local emergency responders, and representatives within 
Federal agencies, and collectively represent the interests of millions 
of emergency responders, as well as the State and local governments 
served by public safety communications. Owing to this collaborative 
effort between OEC and our partners from the very beginning, the 
updated NECP encapsulates broad stakeholder input and is slated to gain 
wide acceptance within the public safety community.
                          oec accomplishments
    OEC has addressed National gaps in the emergency communications 
mission areas of planning, coordination, and training. OEC pursued a 
number of strategies to bring the Nation up to a baseline level of 
communications capability, characterized as a State where emergency 
response providers and Government officials can effectively communicate 
as needed and when authorized. OEC leveraged the Interoperable 
Emergency Communications Grant Program to help States and territories 
establish critical State-wide Interoperability Coordinators and 
governance structures such as the State-wide Interoperability 
Governance Board. These personnel and associated governance structures 
form the focal point and foundation for emergency communications 
efforts at the State and local level. Their on-going efforts remain 
vital even as their original grant funding mechanisms have been 
reduced.
    Once established, State-wide Interoperability Coordinators and 
governing bodies were integral to building out the first State-wide 
Communications Interoperability Plans, which defined a roadmap for each 
jurisdiction to improve interoperability and emergency communications. 
In support of these efforts, OEC also provided technical assistance to 
every State and territory to assist in the implementation of their 
respective State-wide plan. The creation of State-wide Interoperability 
Coordinators and governing bodies represent an investment by Congress 
to create a State and local infrastructure to address these issues. To 
make the most of this investment, these positions and these governing 
bodies should lead the way in ensuring that planning, coordination, 
training, and exercise at the State and local level, continue to drive 
efforts to incorporate new technologies into response-level emergency 
communications.
    At the Federal level, OEC led the effort to establish the 
Congressionally-mandated Emergency Communications Preparedness Center 
to coordinate guidance for all agencies funding interoperability and 
emergency communications. By leveraging the SAFECOM Executive Committee 
and Emergency Response Council, OEC worked to ensure the adoption of 
new policies, plans, and standard operating procedures across our 
Nation. Moreover, OEC ensured that priority access services such as the 
Government Emergency Telecommunications Service and the Wireless 
Priority Services program were available for emergency response 
providers and Government officials from all levels of government when 
those personnel relied on commercial telecommunications services.
    As a result of these efforts and OEC's continued focus on the 
fundamentals of planning, coordination, and training: interoperable 
emergency communications has improved Nation-wide over the last 7 
years. To catalogue key successes:
  <bullet> OEC has conducted more than 1,000 technical assistance 
        workshops since 2007.
  <bullet> OEC has trained over 5,000 emergency response providers and 
        Government officials in communications positions that support 
        the National Incident Management System.
  <bullet> There are now more than 430,000 Government Emergency 
        Telecommunications Service and Wireless Priority Services 
        users.
  <bullet> As part of implementing the first NECP, OEC evaluated the 
        response-level communications capabilities of 60 urban areas 
        and more than 2,800 county-level jurisdictions.\1\ OEC found:
---------------------------------------------------------------------------
    \1\ The NECP defines response-level communications as the capacity 
of individuals with primary operational leadership responsibility to 
manage resources and make timely decisions during an incident.
---------------------------------------------------------------------------
    <bullet> Most jurisdictions demonstrated consistent communications 
            capabilities during events, with 74% of reporting counties 
            indicating ``established'' or ``advanced'' level 
            communications during routine incidents and events.
    <bullet> Nation-wide, the percentage of jurisdictions reporting 
            formal interoperability standard operating procedures--
            those that are published and actively used by jurisdictions 
            during incident responses--increased from 51 percent of 
            respondents in 2006 to 86 percent in 2011.
    We are proud of these accomplishments and the progress that they 
represent for our Nation's preparedness in emergency communications. No 
list of accomplishments, however, can ever compare to seeing such work 
put to use during an actual event like the Boston Marathon bombings.
Emergency Communications During the Response to the Boston Marathon 
        Bombings
    The tragic events of the 2013 Boston Marathon killed 3 people and 
injured nearly 300 more. However, nearly all of the after-action 
reports agree that a greater number of lives could have been lost if 
not for the successfully coordinated and executed emergency response, 
enabled by functional and interoperable communications. In the 
immediate aftermath of the bombings, brave emergency responders and 
Government officials relied on their training to quickly organize a 
chaotic situation, medical personnel triaged on the scene and later in 
hospitals, while ordinary citizens performed heroic feats for their 
fellow citizens. Emergency communications worked during the marathon 
bombings, due to the diligent efforts of Federal, State, and local 
emergency response providers and Government officials. OEC's role was 
to assist our partners in planning, coordinating, training, and 
exercising emergency response protocols before the Boston Marathon 
occurred.
    In 2010, as a part of the NECP implementation, which focused on 
assessing emergency communications capabilities at the Nation's major 
urban areas, OEC assessed the Boston area's communications capabilities 
during that year's Boston Marathon. OEC's assessment recommended 
further integrating communications into the event's overall command-
and-control functions. OEC provided technical assistance to the region 
to train additional communications unit leaders and provided DHS grant 
funding to train more communications unit technicians. The region also 
participated in several OEC-facilitated State-wide planning workshops, 
helping to ensure that public safety entities understood how to 
leverage existing resources and capabilities.
    Prior to the 2013 Boston Marathon and based on a recommendation 
from the 2010 OEC assessment, the region also created a comprehensive 
event communications plan. The new communications unit itself added a 
medical command-and-control radio network.
    This focus on the fundamentals of successful emergency 
communications--planning, coordination, training, and exercise--
ultimately paid dividends as responders from all levels of government 
and across responder jurisdictions communicated seamlessly during the 
bombing incident response.
                 the future of emergency communications
    Importantly, the response to the Boston Marathon bombings 
illustrated a rapidly changing landscape for emergency communications, 
one that involves not just traditional land mobile radio use by first 
responders, but also citizen communications and increased use of 
broadband or internet technologies. For example:
  <bullet> The Boston Police Department was able to use alerts and 
        warnings in conjunction with social media like Twitter to 
        communicate with the public.
  <bullet> Tools, like Google's People Finder, allowed the exchange of 
        information from citizen to citizen.
  <bullet> The FBI received information through video streams, 
        pictures, and general tips.
  <bullet> Public Safety Answering Points were able to utilize 
        ``Reverse 9-1-1'' with the general public.
First Responder Network Authority
    One of the most exciting of these new entrants into our Nation's 
emergency communications landscape is the Nation-wide public safety 
broadband network being developed by the First Responder Network 
Authority (FirstNet), and I am honored today to sit next to my fellow 
panelist, TJ Kennedy, acting general manager of FirstNet. OEC supports 
the DHS role as a board member of FirstNet, an independent authority 
within the Department of Commerce's National Telecommunications and 
Information Administration responsible for the development, deployment, 
and maintenance of a Nation-wide broadband network for public safety 
use. Since the establishment of FirstNet in February 2012, OEC has 
supported FirstNet planning, analysis, and outreach activities 
including:
  <bullet> The Public Safety Advisory Committee, originally composed 
        from a subgroup of the SAFECOM program, in its advisory 
        capacity for public safety, State, local, Tribal, and 
        territorial needs;
  <bullet> The Cyber Infrastructure Risk Assessment, which will guide 
        cybersecurity and resiliency planning for the Nation-wide 
        public safety broadband network;
  <bullet> Nation-wide technical assistance and planning support for 
        States, territories, and localities to assist them with 
        preparing for FirstNet consultation in their jurisdictions; and
  <bullet> The Emergency Communications Preparedness Center, which 
        established a FirstNet Consultation Group to coordinate Federal 
        activities, such as the collection of data related to the needs 
        of Federal users and Federal assets that may be leveraged to 
        deploy the network
    The success of FirstNet's mission is critical for the advancement 
of emergency communications for first responders, and promises to 
elevate public safety entities' ability to execute their duties with 
cutting-edge broadband applications, services, and devices. We are 
pleased with FirstNet's progress, and look forward to our on-going 
collaboration in the advancement of wireless broadband communications 
capabilities.
Updated National Emergency Communications Plan
    Within the ever-changing emergency communications landscape, 
including FirstNet and some of the technologies seen during the Boston 
Marathon bombings, the recently-released 2014 National Emergency 
Communications Plan updates the previous National strategy for 
successful emergency communications. While designing the updated NECP, 
OEC conducted more than 30 stakeholder meetings including 
representatives from the Federal, State, local, Tribal, and territorial 
levels; industry; and representatives from other parts of DHS. To 
reflect changes in technology and our changing definition of emergency 
communications, OEC expanded the scope of its outreach by eliciting 
feedback from public safety answering point personnel, emergency 
management agencies, and other public safety organizations that had not 
been included in the initial outreach to inform the 2008 NECP. The 
updated plan addresses new players who contribute to emergency 
communications while continuing to drive the Nation toward the 
essential planning, coordination, training, and exercise elements.
    OEC's outreach plan for updating the NECP was ambitious. OEC's 
implementation plan for the updated NECP will mirror that ambition. The 
implementation roadmap for the revised NECP includes updating State-
wide planning workshops; providing technical assistance; revising 
Federal Government emergency communications grants guidance; updating 
the existing State governance structures to bring in necessary players; 
and transitioning priority services such as Government Emergency 
Telecommunications Service and Wireless Priority Services to work 
within a digital or Internet Protocol infrastructure.
    Finally, OEC is also focused on ensuring the core, existing 
communications infrastructure retains its capabilities. Land mobile 
radio continues to be the most prevalent method for emergency 
communications throughout much of our Nation. For example, even when 
FirstNet initially becomes operational for data, land mobile radio will 
still be needed to provide mission-critical voice until FirstNet can 
provide this capability.
                               conclusion
    Thank you, Chairman Brooks, Ranking Member Payne, and the Members 
of this committee. At OEC, we will continue to stress the fundamentals 
of planning, coordination, training, and exercise, through our revised 
National Emergency Communications Plan and associated activities. This 
committee has been an excellent partner in this effort and I look 
forward to continuing that dialogue. I am pleased to answer any 
questions that you may have about OEC and our leadership in emergency 
communications.

    Mrs. Brooks. Thank you, Admiral Hewitt. Congratulations 
again on the release of the plan.
    The Chairwoman now recognizes Mr. Kennedy for 5 minutes.

    STATEMENT OF TJ KENNEDY, ACTING GENERAL MANAGER, FIRST 
                  RESPONDER NETWORK AUTHORITY

    Mr. Kennedy. Chairwoman Brooks, Ranking Member Payne, thank 
you for inviting me to testify today on behalf of the First 
Responder Network Authority. I am very honored to have the 
opportunity to brief you on FirstNet's progress and the 
development of an interoperable Nation-wide public safety 
broadband network.
    It is also a pleasure to be here today with key players who 
have been supporting FirstNet as we move forward, director of 
the Office of Emergency Communications Ron Hewitt, as well as 
Mark Grubb representing not just the State-wide 
interoperability coordinators, but he is also one of the single 
points of contact for FirstNet, as each State has identified 
just as the Act has laid out. Mark has been integral in what is 
happening with our consultation efforts and has been a leading 
member of what is going on with FirstNet in the States and we 
look forward to his testimony here today.
    As you are aware, FirstNet was borne out of the 9/11 
Commission report. The goal was to solve communications 
problems that public safety faced that day. FirstNet's mission 
is to bring that priority wireless broadband communications to 
millions of first responders at the local, State, Tribal, and 
Federal levels. The goal of this important endeavor is to 
facilitate seamless communications between police, fire, and 
emergency medical service agencies at every level of 
government.
    Over the past 13 years, we have proven that we can't fix 
this problem with old technology alone and that, instead, we 
need to leverage modern broadband technology and the advances 
that the technology sector can bring to voice, video, and data 
for every police officer, firefighter, and paramedic in the 
country.
    Using a dedicated Nation-wide public safety wireless 
network, FirstNet will provide a ubiquitous solution to a 
decades-long communication challenge and help keep our 
communications and first responders safer with advanced 
broadband services, devices, and leveraging applications.
    FirstNet's goal of building a network to meet the needs of 
first responders is a matter of critical importance for all 
citizens of the United States. While the task ahead will not be 
easy, no project of National importance to public safety ever 
is.
    FirstNet has been developing the leadership, staff, and 
team dedicated to this critical mission, and we have also been 
gaining insight and support from States, from public safety, 
and from other key stakeholders required to make this network a 
reality. This is public safety's network for the future that 
will allow police officers, firefighters, and EMTs to leverage 
the innovation taking place in the world today in wireless and 
mobile technology.
    Over the past 12 months, we have seen dramatic progress at 
FirstNet. We have created a strategic program roadmap, and we 
are making progress against that plan each day. As we grow, it 
is important to remember that we develop a robust culture of 
public safety service, dedication to this important mission, 
and adaptability. All of these are central to our success that 
deal with innovation as it moves forward. Every person who 
joins the FirstNet team must be able to adopt these principles 
and work hard to meet this important public safety mission.
    Our senior team has grown and is focused on the technical, 
business, and legal requirements to establish this important 
network. In September, we released a major request for 
information with our draft statement of objectives and a public 
notice and comment. We received impressive feedback from the 
public, from States, from vendors, from public safety agencies 
on both of these important and strategic steps for FirstNet, 
and we are working steadily towards the development of a 
comprehensive network solutions RFP.
    Consultation is well underway, and we are covering a 
variety of areas, leveraging our key contacts with local, 
State, Tribal, and Federal partners.
    In summary, we have accomplished a lot, yet much more 
remains to be completed. I believe that we are on the right 
path and that with a dedicated team working hard on the 
mission, we will make great strides in the year ahead. We are 
gaining momentum each day, and we are building a record of 
doing what we say we are going to do.
    Our FirstNet team is passionate about this incredible 
mission to bring modern communication tools to law enforcement, 
fire, and emergency medical service personnel who respond to 
life-threatening emergencies across America and keep us safe 
and help us in our moments of greatest need. Thank you for 
allowing me to be here today, and I look forward to answering 
your questions.
    [The prepared statement of Mr. Kennedy follows:]
                    Prepared Statement of TJ Kennedy
                           November 18, 2014
                            i. introduction
    Chairwoman Brooks, Ranking Member Payne, and Members of the 
subcommittee, thank you for inviting me to testify on behalf of the 
First Responder Network Authority (FirstNet). I am honored by the 
opportunity to brief you on FirstNet's progress in the development of 
an interoperable Nation-wide public safety broadband network (NPSBN).
    It is also a pleasure to appear here today with the director of the 
Office of Emergency Communications (OEC) at the Department of Homeland 
Security (DHS), Mr. Ron Hewitt. He and his office have been 
tremendously helpful and supportive to FirstNet in sharing their 
expertise and experience.
    Also with us today is Mr. Mark Grubb, representing the National 
Council of State-wide Interoperability Coordinators (NCSWIC). Mr. Grubb 
appears in his capacity as the State of Delaware's Governor-appointed 
FirstNet Single Point of Contact (SPOC). In this role, he is 
responsible for the coordination of outreach and education efforts 
within the State. Mr. Grubb has led a vigorous outreach effort within 
Delaware, and we are excited by his and his State's efforts.
                             ii. background
    The Middle Class Tax Relief and Job Creation Act of 2012 (Pub. L. 
112-96) (Act) established FirstNet as an independent authority within 
the Department of Commerce's National Telecommunications and 
Information Administration (NTIA). Under the Act, FirstNet is tasked 
with building and operating a self-funding, sustainable, interoperable 
broadband network for public safety entities across the country and 
within U.S. Territories. The NPSBN will fulfill a fundamental need of 
the public safety community as reflected in the recommendations of the 
9/11 Commission: FirstNet will finally bring 21st Century priority 
wireless broadband communications to millions of first responders at 
the local, State, Tribal, and Federal levels. Using a dedicated Nation-
wide wireless network, FirstNet will help provide a ubiquitous solution 
to decades-long interoperability and communications challenges and help 
keep our communities and first responders safer with advanced broadband 
services, devices, and applications.
    FirstNet's goal of building the Nation-wide public safety broadband 
network to meet the needs of first responders is a matter of critical 
importance for public safety. While the task ahead will not be easy, 
FirstNet is developing the leadership, staff, and support from States, 
public safety, and other key stakeholders required to make this network 
a reality for first responders and the public who call on them for help 
in their time of need.
    In August 2012 the Secretary of Commerce fulfilled the statutory 
requirement of naming the FirstNet Board. As required by law, the 
members have specialized knowledge, experience, and expertise needed to 
develop the network. Our first board chair Mr. Sam Ginn led the 
organization until last summer when our new chair, Ms. Sue Swenson, was 
appointed to the position. We are grateful for Mr. Ginn's leadership 
and are excited by the continued energy and focus Ms. Swenson brings.
    Over the past 12 months, we have seen dramatic progress at 
FirstNet. We have grown from 4 to 83 full-time employees, and we have 
established our headquarters in Reston, VA. The leadership team 
includes myself as acting general manager, a chief financial officer, 
chief technology officer, chief information officer, chief 
administrative officer, chief counsel, and other executives focused on 
the technical, business, and legal requirements essential to making the 
Nation-wide public safety broadband network a reality.
    We have also opened a technical office in Boulder, Colorado, where 
much of our technical work is currently underway. At this facility, and 
through a coordinated relationship with the National Institute of 
Standards and Technology (NIST) and NTIA, we, among other things, are 
preparing to test various technologies to better understand how to 
ensure that the network is built efficiently and meets all of the goals 
of the act.
             III. FirstNet's Roadmap to a Sustainable NPSBN
    With these foundational efforts underway, we have narrowed our 
focus on what it will take from outreach, technical, and financial 
perspectives to build and maintain a public safety broadband network 
long-term. Much of our planning is embodied in our ``FirstNet Strategic 
Program Roadmap,'' which was adopted by the FirstNet Board in March 
2014. In that roadmap, FirstNet outlined the milestones it planned to 
accomplish over the next year, which include:
  <bullet> beginning formal in-person State consultations;
  <bullet> releasing a draft request for comprehensive network 
        proposals for comment;
  <bullet> releasing draft requests for certain network and equipment 
        services proposals for comment; and
  <bullet> initiating a public notice and comment process on certain 
        program procedures, policies, and statutory interpretations.
    FirstNet has made significant progress on these milestones:
  <bullet> We distributed 56 State consultation packages on April 30, 
        2014. As of November 6, 2014, we have received 29 completed 
        State checklists;
  <bullet> We have launched formal State consultations, meeting with 7 
        States since July, with an eighth State scheduled in December;
  <bullet> We released and received approximately 122 responses to a 
        Request for Information (RFI) with a draft Statement of 
        Objectives (SOO) for our comprehensive Request for Proposals 
        (RFP); and
  <bullet> We released and received approximately 64 responses to a 
        public notice for publication seeking comment on several key 
        program policies and statutory interpretations.
    I would like to briefly describe the progress we have made to date 
and highlight where these efforts are heading.
A. State Consultations
    Our efforts to interact with the States, Tribes, local 
jurisdictions, and Federal departments and agencies are a centerpiece 
of the FirstNet mission and are an essential requirement of the Act. 
Our State and local planning consultation process, coordinated through 
the Governor-designated State single points of contact, ensures that 
FirstNet obtains key information from the public safety community of 
all 56 States and territories and understands their unique public 
safety operations. Our goal from this process is to develop a detailed 
State plan for each State's review. This plan will inform a State's 
opt-in or opt-out decision, as provided for in the Act, how the State 
radio access network (RAN) portion of the Nation-wide network will be 
developed.
    In order to execute on this statutory requirement, FirstNet has 
built a consultation strategy that focuses on several key objectives, 
ensuring that the consultation process is:
  <bullet> Iterative, giving States and other stakeholders 
        opportunities to provide feedback and input throughout the 
        process;
  <bullet> Collaborative, so that we are working together with the 
        States to collect information and data that will be useful for 
        the deployment of the network;
  <bullet> Focused on critical elements, ensuring that we maximize the 
        States and taxpayers' investments in FirstNet; and
  <bullet> Informing inputs to RFPs, the delivery of the State plans, 
        and the design, construction, and operation of the network.
    Through the State consultation process, FirstNet anticipates 
holding numerous in-person meetings with each of the 56 States and 
territories over the next year and beyond. We formally launched our 
State and local planning consultation process on April 30, 2014, when 
we sent each State an Initial Consultation Package (ICP). The ICP 
provided key information to State leaders on the consultation process 
and topics that would be discussed during the initial consultation 
meetings.
    FirstNet also included a readiness checklist to help each State 
provide FirstNet information about its governance structure, on-going 
outreach to key public safety stakeholders, and other details the State 
believes are important as FirstNet and the State collaboratively plan 
the NPSBN.
    In conjunction with the delivery of the ICP, FirstNet extended 
invitations to conduct pre-consultation teleconferences with each State 
and territory to provide clarity on the initial consultation topics, 
answer any questions the State may have about the process, and to begin 
the dialog between the States and FirstNet on the critical issues 
associated with the NPSBN. As of today 44 States and territories have 
held teleconferences with FirstNet for this purpose.
    With this preparation effort under way, FirstNet held the first 
formal consultation pilot meeting in July 2014 with leaders from the 
State of Maryland, including members from the Governor's office and 
executive agencies, the Maryland State Police, staff from the Maryland 
legislature, and other public safety leaders throughout the State. We 
learned valuable lessons about the State's emergency broadband 
communications needs, the State's perspective on the planning and 
deployment of the NPSBN, and how we can build a strong partnership with 
Maryland going forward. As of today's hearing, we have completed an 
additional eight initial consultation meetings in Minnesota, Oregon, 
Washington, Montana, Utah, Puerto Rico, and Iowa. We have one 
additional meeting scheduled for this year in Florida. We have planned 
an aggressive State consultation meeting schedule in 2015 and look 
forward to updating this committee on our progress.
    Additionally, over the past year, FirstNet has conducted focused 
outreach with individual Tribes, Tribal organizations, and Federal 
Tribal Government liaisons and is working with the Public Safety 
Advisory Committee to establish a Tribal Working Group. The intent and 
tone of these discussions has uniformly been positive. FirstNet will 
formulate a tribal outreach campaign in late 2014 that involves Indian 
Country through combined State and Federal level engagement.
    While we are pleased with our progress, we know much more needs to 
be done to continue to cultivate our relationships with each State, 
territory, and Tribal nation, and we are working feverishly to meet our 
statutory obligation and roadmap goals. To that end, FirstNet is hiring 
10 regional teams to ensure sufficient resources in support of our 
outreach and State consultation efforts. These FirstNet regions cover 
the same States, territories, and Tribal nations as the 10 Federal 
Emergency Management Agency (FEMA) regions. Our teams will span the 
Nation to participate in consultation meetings, join various regional 
and State governing body meetings and association conferences, and meet 
one-on-one with the State single points of contact and public safety 
agencies representing potential FirstNet network users. FirstNet 
expects to hire these 10 regional leads in late 2014 and early 2015, 
and bring on additional regional staff throughout 2015 as appropriate 
to meet our goals.
    Complementing this effort is FirstNet's robust outreach and 
education strategy, committed to reaching the public safety community 
across all levels of government and through National and State 
associations. In the past year we have addressed over 24,000 
stakeholders at various conferences, meetings, and speaking events, and 
we plan to dramatically exceed that number in 2015.
    We are also working closely with Federal agencies to drive 
collaboration and potential use of the NPSBN. Recently, FirstNet 
formalized a relationship with the Emergency Communications 
Preparedness Center (ECPC) to increase outreach with Federal 
stakeholders. The ECPC is the Federal interagency group focused on 
interoperable and operable emergency communications, and is 
administered by the DHS OEC. FirstNet has participated in many ECPC 
meetings over the past year to keep members informed of FirstNet 
activities and to discuss how best to collaborate to ensure Federal 
input is incorporated into the State plans. A Federal outreach team 
will be staffed in late 2014 to continue working with the ECPC and to 
expand efforts to engage one-on-one with the departments and agencies 
on a regular basis to better understand the unique needs of agencies 
and expand awareness of FirstNet.
    Additionally, FirstNet's Public Safety Advisory Committee (PSAC), 
chaired by Mr. Harlin McEwen, and composed of key public safety 
stakeholders, will continue to be a key resource as we pursue our 
mission. Public safety's input via the PSAC is vital at all stages of 
the network's development so that it will be tailored to the needs of 
the end-users--America's first responders and other public safety 
entities. Although there is plenty of work to do, we are excited about 
our mission, and confident that we are on the right path.
B. Request for Information/Statement of Objectives
    As we engage States and public safety, FirstNet also is actively 
conducting extensive market research to gain as much insight as 
possible into the capabilities, opportunities, risks, and innovative 
business partnerships in the market today to support the construction 
of a Nation-wide public safety broadband network for public safety 
entities. FirstNet is seeking further input from the public this fall 
that will help shape the direction of our future procurements, 
including the planned comprehensive network RFP and the equipment and 
network services RFP.
    On September 17, the FirstNet Board released an RFI that included a 
full draft Statement of Objectives (SOO). The RFI sought input from 
industry on some of the key approaches FirstNet is considering before 
finalizing the draft comprehensive network RFP. The RFI included 
questions on network build-out, deployment, operations, and 
maintenance; cost considerations and financial sustainability; speed to 
market; system hardening and resiliency; user priority and preemption; 
customer care and marketing; and general compliance with the Act. The 
draft SOO will help industry better understand FirstNet's key program 
objectives in the creation, operation, and maintenance of the NPSBN. 
FirstNet is taking an objectives-based approach to our procurement, 
rather than a requirements-driven approach, in order to promote 
flexibility in achieving FirstNet's goals while helping FirstNet reduce 
the complexity we face in managing and integrating the diverse set of 
components needed to meet our mission. FirstNet will benefit from the 
creativity and expertise of respondents in identifying multiple ways to 
achieve a stated objective. FirstNet will use the comments it receives 
on the RFI and draft SOO to refine the acquisition approach and draft 
the comprehensive network RFP.
    We have received more than 120 responses to the RFI and are very 
encouraged with the interest it has generated. All responses are being 
kept confidential, to provide the necessary assurances to the RFI 
responders to allow them to provide comprehensive and forthright 
solutions, facilitating FirstNet's ability to thoroughly develop the 
next step in the procurement phase, the draft RFP.
    As this committee knows well, FirstNet is statutorily required to 
engage in an open, transparent, and competitive RFP process, and the 
release of this latest RFI is an important step in meeting this 
obligation. This RFI/draft SOO continues FirstNet's market research 
efforts and acts as a precursor to the issuance of a draft RFP 
estimated in early 2015.
C. Public Notice and Comment
    FirstNet's Board coupled its September 2014 release of the RFI and 
draft SOO with a public notice. As a newly-created entity under a 
unique statutory construction, FirstNet is confronted with many complex 
legal issues and terms that will have a material impact on our RFPs and 
our operations going forward. This public notice sought comment on 
certain key interpretations of the Act to help inform our approach to 
our various RFPs and on-going operations. Specifically, the public 
notice sought comments on issues that include the definition of core 
and RAN; the definition of public safety entities--the ultimate primary 
users of the network; secondary users; rural area; user and other fees; 
and minimum technical requirements.
    We were pleased to have received and are currently in the process 
of reviewing the more than 60 responses to the public notice. We 
received responses from a broad group of stakeholders including, 
commercial carriers and vendors, State, local, and Tribal governments, 
and various associations that represent public safety interests. The 
feedback on these topics will provide important inputs into the draft 
comprehensive network RFP and on FirstNet operations. Many of these 
issues could have significant impact on the economics of the NPSBN and 
the various solutions proposed by vendors. FirstNet needs to clearly 
define these terms prior to releasing the draft comprehensive network 
RFP so potential offerors have a common framework to submit responsive 
and competitive proposals. These responses are all public and can be 
viewed at www.regulations.gov.
D. Technical Development
    Other that looking at the development of our RFI and the technical 
components of a future RFP, the FirstNet technical team has been 
focusing on a number of core areas:
  <bullet> standards development;
  <bullet> testing and evaluation;
  <bullet> modeling and simulation.
    As mentioned before we have been working very closely with the team 
at PSCR to ensure the sharing of ideas and open data and to eliminate 
information silos.
            FirstNet utilizing PSCR for standards development
    Working directly with PSCR has allowed FirstNet to make significant 
progress on the world-wide standards body for LTE. The standards body 
through which we are working is 3GPP. According to the 3GPP website, 
``The 3rd Generation Partnership Project (3GPP) unites [Six] 
telecommunications standard development organizations (ARIB, ATIS, 
CCSA, ETSI, TTA, TTC), known as `organizational partner' and provides 
their members with a stable environment to produce the Reports and 
Specifications that define 3GPP technologies.''\1\ As a result of this 
collaboration, FirstNet has helped to develop broad coalitions who have 
pushed for the prioritization of public safety standards development in 
LTE.
---------------------------------------------------------------------------
    \1\ 3GPP website, ``About 3GPP'', http://www.3gpp.org/about-3gpp/
about-3gpp.
---------------------------------------------------------------------------
            Testing, evaluation, modeling, and simulation
    Through this effort we have validated certain key elements and 
features for priority and preemption within the LTE environment. 
Further refinement is required to fine-tune these elements and this is 
underway. In addition the Technical team has assisted in validating 
certain of the key assumptions within the FirstNet program roadmap 
released back in March, including relating to the modelling of cell 
site location Nation-wide and the amount of excess capacity of our 
spectrum that might available for secondary use.
            Next steps
    FirstNet will continue to work with PSCR throughout the development 
of the network. We have already seen tremendous benefit of our 
cooperative relationship and we are excited to achieve additional 
success. We will also be working very closely with the PSAC in order to 
help define the framework for priority and preemption on the network. 
Leveraging our public safety experts for this important task is crucial 
if we are to successfully reach a solution to this challenging topic.
                             iv. conclusion
    I am grateful to the committee for the opportunity to update you on 
FirstNet's progress. As you can see, FirstNet has dramatically advanced 
its efforts in the past 12 months to meet our statutory obligations, 
reach those who will use and benefit from our network, and develop a 
business plan that will provide a self-funding, innovative broadband 
service to first responders long-term.
    We still have much to do to achieve our mission, and are moving 
forward with a continued focus on our primary long-term objectives:
  <bullet> Deliver advanced, resilient public safety wireless broadband 
        services;
  <bullet> Minimize public safety user fees;
  <bullet> Minimize the amount of capital and operating expenses 
        incurred by FirstNet;
  <bullet> Leverage synergies with existing infrastructure where 
        economically desirable to FirstNet; and
  <bullet> Maximize the value of our excess network capacity to keep 
        costs low for public safety.
    FirstNet has a difficult task ahead, but with the support of 
Congress, public safety, State and local jurisdictions, and the private 
sector, we will succeed in accomplishing our mission. This is a network 
that is urgently needed to increase the safety and capabilities of all 
public safety personnel and protect the American people, and we are 
committed to delivering it.
    Thank you for your time. I would be pleased to answer any questions 
that you may have.

    Mrs. Brooks. Thank you, Mr. Kennedy.
    The Chairwoman now recognizes Mr. Grubb for 5 minutes.

 STATEMENT OF MARK A. GRUBB, DIRECTOR, DELAWARE DEPARTMENT OF 
    SAFETY AND HOMELAND SECURITY, DIVISION OF COMMUNICATIONS

    Mr. Grubb. Good morning. Chairwoman Brooks, Ranking Member 
Payne, thank you for allowing me the opportunity to provide 
testimony today, and I would like to also thank the 
distinguished committee, and it is an honor to appear here with 
Mr. Kennedy and Admiral Hewitt.
    As the emergency response community and State executives 
prepare to work with FirstNet on the build-out of the National 
Public Safety Broadband Network, we are also simultaneously 
coordinating the transition from 9-1-1 to next-gen 9-1-1. One 
of my additional duties in the State of Delaware is I am a 
Governor-appointed member of the Enhanced 9-1-1 Services Board, 
so I do have a wide look at all of the emergency response in 
the State of Delaware.
    So these efforts will all enhance emergency communications 
for public safety, Government officials, and public, but they 
have also created a fast-evolving and more complex emergency 
communications landscape. With this evolution taking place, 
States and territories have a great opportunity to leverage 
their State-wide interoperability coordinator to ensure these 
capabilities are built out to the most efficient and effective 
manner possible.
    Since September 11 and the implementation of the SWIC 
program, there are numerous examples of increased coordination 
intra- and inter-State. There have been significant 
improvements in State-wide communication systems, training, and 
education of first responders and communications staff and, 
most importantly, on-going coordination by the SWICs at every 
level, but our work is certainly not finished.
    I think this point is certainly driven home by a recent 
quote from Oklahoma SWIC Nikki Cassingham after the tragedy of 
the Oklahoma tornadoes. I quote: ``In conjunction with the 
State-wide Interoperability governing body, the SWIC built the 
State-wide communications, or CONU, including the 
communications leader, or COML, and communications technician, 
or COMT, credentialing program from the ground up and has made 
significant efforts to expand and improve the program since its 
inception. The success of the Oklahoma's COML/COMT program was 
demonstrated most notably in the aftermath of the EF5 tornado 
that tore through the city of Moore, Oklahoma, on May 20, 2013. 
Two State-certified COMTs were among the first to arrive on the 
scene to assess infrastructure damage, while the lead COML 
issued cache radios, requested additional resources, and 
drafted the ICS-205 Communications Plan. The knowledge and 
experience of Oklahoma's certified COMLs and COMTs played an 
enormous role in the success of the communications response to 
this event.''
    This is just one real-life example of improvements since 9/
11 and is a direct result of the investments made by this 
committee. However, interoperability requires much more than 
just equipment; it is really about people in disparate agencies 
and jurisdictions including each other in their planning 
processes. In other words, it is about relationships and lines 
of communications.
    As administrations change and people switch jobs, those 
relationships must be rebuilt, which require education and 
training. It is an on-going process, it is a very human process 
that must be maintained, year in and year out. It requires 
attention and dedication and, yes, it requires funding. If we 
don't have all of those things, we will not be able to 
maintain, much less improve upon, the interoperability progress 
we have made since 9/11.
    With the current absence of SWIC funding, we are losing 
ground. The SWIC position was created with the support of the 
Department of Homeland Security's Office of Emergency 
Communications, and States used funding from the Interoperable 
Emergency Communications Grant Program to keep SWIC on staff. 
With IECGP funding now expired, many States are struggling to 
continue to fund the SWIC position and even keep the 
interoperability body operating.
    Reinstating grant funding similar to IECGP is vital to the 
continued success of SWICs and interoperability. SWICs play an 
important role, but we could not do it without the support of 
the Office of Emergency Communications. South Dakota's SWIC, 
Jeff Pierce, said it best, when he said: ``I have been involved 
in providing communications for the State of South Dakota for 
almost 35 years. In that time, the SWIC program and those 
initiatives implemented by OEC to promote interoperability have 
advanced public safety communications far beyond what technical 
developments have.''
    In conclusion, robust communications are a must for first 
responders in every State. A strong SWIC and appropriate levels 
of funding can help make that a reality by bringing people 
together, continuing a strategic vision for interoperability, 
and working toward the best solution for a State's citizens. 
Let us not forget the painful lessons learned from a lack of 
interoperable communications during 9/11. It is in every 
State's best interest to make effective use of this crucial 
position.
    As you know, nothing in Government gets done unless there 
is a champion, especially with communications interoperability, 
a problem that prior to the advent of SWICs often seemed to 
have no owner. The SWIC is the communications interoperability 
champion for the State and the Nation. Thank you again for 
allowing me time to provide this testimony. I look forward to 
your questions.
    [The prepared statement of Mr. Grubb follows:]
                  Prepared Statement of Mark A. Grubb
                           November 18, 2014
    Chairman Brooks, Ranking Member Payne, and distinguished Members of 
the committee, I would like to thank you for allowing me the 
opportunity to provide testimony on this important topic. My name is 
Mark Grubb, I serve as the director of the Delaware Division of 
Communications in the Department of Safety and Homeland Security, and I 
am also the State-wide Interoperability Coordinator or SWIC for 
Delaware. In addition, I am honored to serve as the chairman of the 
National Council of State-wide Interoperability Coordinators. I am also 
Delaware's First Net State Point of Contact and I am an appointed 
member of Delaware's Enhanced 9-1-1 Services Board.
    As the emergency response community and State executives prepare to 
work with the First Responder Network Authority (FirstNet) on the 
build-out of the National Public Safety Broadband Network (NPSBN), we 
are also simultaneously coordinating the transition from 9-1-1 to Next 
Generation 9-1-1, as well as maintaining existing Land Mobile Radio 
systems that provide mission-critical voice. These efforts will all 
enhance emergency communications for public safety, Government 
officials, and the public, but they have also created a fast-evolving 
and more complex emergency communications landscape. With this 
evolution taking place, States and Territories have a great opportunity 
to leverage their State-wide Interoperability Coordinator (SWIC) to 
ensure these capabilities are built out in the most efficient and 
effective manner. Since 9/11 and the implementation of the SWIC 
Program, there are numerous examples of increased coordination intra- 
and inter-State. There have been significant improvements in State-wide 
communication systems, training and education of first responders and 
communications staff, and most importantly on-going coordination by the 
SWICS at every level, but our work is certainly not finished. I think 
this point is certainly driven home by a recent quote from the 
Massachusetts SWIC Steve Staffier:

``As I witnessed during the Boston Marathon bombings, even though we 
have all made significant investments in equipment and systems around 
the country, we still need help in education/training/outreach to the 
end-users and key decision makers . . . and this requires a SWIC and 
funding.

``These radios and systems don't talk on their own and the coordination 
doesn't happen without the SWIC and a COMU (Communications Unit) Team 
of COML's (Certified Communication Leaders) and COMT's (Certified 
Communication Technicians).''

    Or the statement from Oklahoma SWIC Nikki Cassingham after the 
tragedy of the Oklahoma tornados:

``In conjunction with the State-wide Interoperability Governing Body 
(SIGB), the SWIC built the State-wide COML & COMT Credentialing program 
from the ground up and has made significant efforts to expand and 
improve the program since its inception. The success of Oklahoma's 
COML/COMT program was demonstrated most notably in the aftermath of the 
EF5 tornado that tore through the city of Moore, Oklahoma on May 2, 
2013. Two State-certified COMT's were among the first to arrive on the 
scene to assess infrastructure damage, while the lead COML issued cache 
radios, requested additional resources, and drafted the ICS-205 
Communications Plan. The knowledge and experience of Oklahoma's 
certified COML's and COMT's played an enormous role in the success of 
the communications response to this event.''

    These are real-life examples of improvements since 9/11 and are 
direct results of the investments made by this committee. However, 
interoperability requires much more than just equipment--it's really 
about people in disparate agencies and jurisdictions including each 
other in their planning processes. In other words, it's about 
relationships, lines of communications. As administrations change and 
people switch jobs, those relationships must be re-built, which 
requires education and training. It's an on-going process, a very human 
process that must be maintained, year in and year out. It requires 
attention and dedication and, yes, funding. If we don't have all those 
things, we will not be able to maintain, much less improve upon, the 
interoperability progress we have made since 9/11. With the current 
absence of SWIC funding, we are losing ground.
    SWICs play a central role in a State's emergency communications and 
interoperability efforts by working with first responders across all 
levels of government, acting as a central coordination and outreach 
point, and guiding efforts around the creation and implementation of 
State-wide Communications Interoperability Plans (SCIP). Because of 
their wide-angle view of communications across a State, SWICs can bring 
a vital perspective and strategic vision to a State's efforts, as well 
as guide thoughtful spending decisions, plan needed training and 
workshops, and improve preparedness State-wide. The Department of 
Homeland Security's Office of Emergency Communications has supported 
the development of SWICs, assisted with the creation and updates of 
State-wide plans, and helped States and territories form State-wide 
Interoperability Governance Body or State-wide Interoperability 
Executive Council to coordinate emergency communications. These 
existing structures and plans can and should be leveraged as States 
prepare for broadband and Next Generation 9-1-1.
    Recently, States have been asked by FirstNet to appoint a State 
Point of Contact (SPOC) to assist with the planning and implementation 
phases of the NPSBN. In 18 States and the District of Columbia, the 
SWIC is also acting as the SPOC. In 12 States, the SWIC and SPOC both 
work within the same department, but in another 25 States the two roles 
are housed within separate departments. In addition, most States have a 
separate person responsible for 9-1-1 activities and the transition 
from 9-1-1 to Next Generation 9-1-1. With this structure, it is easy to 
see how the LMR, broadband, and 9-1-1 communication efforts can become 
separate programs with little coordination.
    We have a tremendous opportunity for States to increase 
coordination across these various efforts to improve communications for 
public safety. The SWICs who are not the primary point of contact for 
broadband should include the SPOC and 9-1-1 Coordinators in the State-
wide planning process while also expanding the existing State-wide 
governance structures to include the SPOCs, Chief Information Officers, 
and State 9-1-1 Coordinators. This would allow collaboration across all 
these various communication projects and ensure the SCIP is truly a 
comprehensive State-wide plan that addresses all elements of emergency 
communications.
    For example, in Delaware, I have been asked to fill both the SWIC 
and SPOC roles and have also been asked by the Secretary and Governor 
to serve on the E-9-1-1 board. This will enable me to look at the three 
elements in the most comprehensive, strategic, and public-safety 
focused way. It also allows Delaware to use the governance structure of 
its existing State-wide Interoperability Executive Council to address 
the design and use of a broadband system in the State.
    In addition to keeping the SWIC involved in a State's work with 
FirstNet, States should consider the following to make the best use of 
this valuable position.
       continue to provide full funding and support to your swic
    The SWIC position was created with support from the Department of 
Homeland Security's Office of Emergency Communications (OEC) and many 
States used funding from the Interoperable Emergency Communications 
Grant Program (IECGP) to keep a SWIC on staff. With IECGP funding now 
expired, many States are struggling to continue to fund the SWIC 
position and even keep the interoperability body operating. OEC has 
been working to ensure applicable grant programs recognize SWIC support 
as an allowable cost to help States keep this vital position funded.
    I would also urge States to find the funds to continue to support 
this position that both creates value and ensures efficiency. Among 
their vital roles, SWICs can be cost savers by ensuring a State spends 
its emergency communications grant funding and budgets effectively. 
Because the SWIC is able to take a comprehensive view of a State's 
communications systems, it's easier to ensure an agency doesn't go out 
and spend money on a system that is redundant with a solution available 
in the State or invest in something that is incompatible with other 
current or emerging technologies.
    In addition, SWICs are able to help jurisdictions respond better to 
natural disasters, emergency incidents, and large-scale planned events 
by focusing on State-wide planning and supporting broader training and 
coordination. A strong SWIC knows where each Communications Unit Leader 
is in the State, has them trained and ready, and can quickly deploy 
them to an incident commander for any type of response.
    Mrs. Chairman, as you know, nothing in Government gets done unless 
there is a champion, especially with communications interoperability, a 
problem that often seems to have no owner. The SWIC is the 
communications interoperability champion for the State and the Nation.
                elevate the swic in a state's structure
    For the SWIC to be most effective, the position must be placed high 
enough within the State structure. We have some SWICs who are really 
strong and knowledgeable, but they are not placed in a position to 
effectively coordinate efforts, prepare for emerging technologies, and 
help ensure wise purchasing policy.
    As Delaware's SWIC, I report directly the Secretary of the 
Department of Safety and Homeland Security who chairs the State-wide 
Interoperability Executive Council and reports directly to the 
Governor. The Secretary chairs the council's monthly meetings and votes 
as one of the 15 council members. The other members represent State and 
county governments and first responder groups.
    I'm an active part of the council, but, by design, I am not a 
voting member. That neutrality gives me the opportunity to study and 
present facts, and then step back from any politics and allows the 
board to make its decision.
              access the ncswic network and oec's support
    SWICs play an important role, but we could not do it without the 
support of OEC. The office really helps us do our jobs--especially in 
environments where funding has been cut--by setting priorities, 
bringing together the National Council of State-wide Interoperability 
Coordinators (NCSWIC), and providing guidance and training.
    Before NCSWIC was created in 2010, SWICs didn't have nearly the 
bandwidth we have now because we couldn't reach across the country for 
ideas and support. We now have that deep bench and can get in direct 
contact with other SWICs who have faced similar challenges and 
scenarios. We can reach out and get really good answers and samples 
from other States' experiences and best practices. For example, Oregon 
worked with FirstNet to put together an incredible website on broadband 
for public safety. We got permission to utilize a lot of the framework 
from that website, and now Delaware has launched its State FirstNet 
site. The benefits of the NCSWIC came about because OEC helped set up 
the program and continues to support us in our joint efforts. In 
addition, by allowing each SWIC to request up to five technical 
assistance offerings each year, OEC empowers SWICs to bring additional 
training, education, and governance support to a State. South Dakota's 
SWIC, Jeff Pierce said it best:

``I've been involved in providing communications for the State of South 
Dakota for almost 35 years, in that time the SWIC program and those 
initiatives implemented by OEC to promote interoperability have 
advanced public safety communications far beyond what technical 
developments have.''

                               conclusion
    Robust communications are a must for first responders in every 
State. A strong SWIC and appropriate levels of funding can help make 
that a reality by bringing people together, developing a strategic 
vision for interoperability, and working toward the best solutions for 
a State's citizens. Let us not forget the painful lessons learned from 
a lack of interoperable communications during 9/11. It is in every 
State's best interest to make effective use of this crucial position.

    Mrs. Brooks. Thank you, Mr. Grubb. I will now begin my line 
of questioning for 5 minutes.
    I would like to ask Admiral Hewitt and--in your testimony, 
you noted that the first responder jurisdictions communicated 
seamlessly during the bombing incident and that that--in 
Boston. I understand that the radio networks worked extremely 
well and that had been--there had been training, extensive 
training that had taken place. But I have to share that I spoke 
with former Boston Police Commissioner Ed Davis and, in fact, 
he testified before the Homeland Security Committee--and I have 
seen him once since--and he indicated that the response was not 
without its challenges.
    So while I am so pleased that the radio response went very 
well, first responders are also so accustomed to using their 
cell phones and that the lack of cell service did impact the 
leadership's ability to communicate.
    Can you talk about how OEC is working with Boston and--to 
address the lessons learned and where OEC is seeing these 
issues with respect to first responders also relying on their 
cell phones beyond the radio? What is OEC's, you know, thoughts 
and work on that particular issue? Because Commissioner Davis, 
you know, shared that they were unable to communicate on their 
cell phones. Any thoughts on that?
    Admiral Hewitt. Thank you, Chairwoman Brooks. You are 
correct. In fact, there were news releases right after the 
bombing went off that the Federal Government shut down the 
commercial cellular network because--and it didn't. What 
occurs--the commercial networks are designed for a certain 
capacity, and that way exceeded that capacity, so only about 2 
percent or 3 percent of the calls were actually going through, 
so it looked like it was shut down.
    Office of Emergency Communications also has a National 
continuity program that has wireless priority services, WPS. 
That capability is available to public safety. In fact, in 
Boston, we had to--but unfortunately, they have to pay a 
service charge to do that, and because they are strapped with 
funds, they don't have that capability to do so.
    For the Boston bombings, we ended up turning on about 150 
phones, cellular commercial phones in that area, but you need 
it right away. So the other aspect we are doing now is 
increasing our training programs and education on WPS and to 
make sure they are aware of those so they can.
    But at the same time, we have FirstNet, you know, working 
with TJ and the FirstNet staff, having that 20 megahertz of 
spectrum set aside for public safety and the cellular band, it 
is going to be tremendously helpful on the day-to-day basis. So 
between the two, having FirstNet coming on-line to give us 
excess capacity and educating in that--those that do have to 
have cellular commercial phones, that they have WPS. So it is 
really a training and exercise perspective.
    Just like we have been focused on land mobile radio, we now 
have to educate people on how to use broadband and the 
capabilities that are there, ma'am.
    Mrs. Brooks. Okay, thank you. I assume WPS is similar to 
the GETS card? When I was U.S. attorney, I had a GETS card that 
would give me priority. Although you have to: (A) Remember that 
you have the card and the phone number that is in your wallet, 
or in your--you know, and, (B) just remember to use it, right?
    Admiral Hewitt. Yes, ma'am. In fact, the GETS card, there 
is a long identification number, and it is very difficult to 
use. With WPS, you just dial star, 272, and then the phone 
number, and then it goes through, so it is a lot easier to use. 
But many folks in the public safety world--because, again, it 
grew out of a National continuity program--aren't educated on 
it and how to use it. We are doing our best to get that word 
out to everyone.
    Mrs. Brooks. Okay, thank you. Mr. Kennedy, today you have 
completed 7 or 8 State consultations--I think I have read 7 and 
the eighth is in December. Is that correct?
    Mr. Kennedy. Yes. We actually just added 1 last week, so 8 
are now done and 1 more to go.
    Mrs. Brooks. Okay. Okay, thank you. Can you please share 
with me in my brief time left, how are these meetings going? 
What kind of changes have maybe you made to the consultation 
process since you started the process? What is your projected 
time frame for completion of State consultation, which I think 
will be critical in the success of FirstNet?
    Mr. Kennedy. Sure. There are a number of phases to State 
consultation. The first meetings that we are talking about is 
kind of the Phase 1 set of meetings. Just like you have 
mentioned, we have gone through these 8 meetings. We actually 
have Iowa today. We have Florida coming up in the very near 
future. So we are continuing to plug through this first set of 
meetings while looking forward to right after the first of the 
year conducting the rest of them.
    We have 32 States that are now ready to conduct 
consultations, so 8 of those are already--have occurred, but we 
are continuing to go through State by State and meet with a 
number of key stakeholders. Some of these meetings have had 
over 170 participants representing city, county, State, and 
different agencies, Tribal involvement from public safety, lots 
of key State officials, if it refers to transportation and 
different communication elements to the State CIO.
    So a lot of cross-functionality in the room to be able to 
discuss how FirstNet will make a difference. Just like the 
example you went through, it is the example of having that 
priority built into the system from Day 1 and having the 
devices in the hands of people who need it.
    So it has worked very, very well to start and continue to 
push that conversation on consultation forward. We are looking 
for a number of phases to consultation. Right now, we believe 
there will be probably 4 over the next year. We want to finish 
this Phase 1 and get into Phase 2, so that is our current plan 
for fiscal year 2015. To move that----
    Mrs. Brooks. I am sorry, just to clarify, is Phase 2 just 
the next round of consultations? Or is Phase 2 an add-on to 
what you did with the States in Phase 1?
    Mr. Kennedy. Yes, so Phase 2 will build on what was done in 
Phase 1, so Phase 1 is a full-day interaction with each of the 
States with a number of different asks from us to the State on 
where are their public safety users, how do they plan to 
leverage the network, a number of key issues and priorities for 
the State that we will be going back-and-forth with them on. 
That second phase would build upon that Phase 1.
    As we move forward, this will help inform our RFP process, 
as well as inform the State plan. The goal of this consultation 
is to result in a State plan for each Governor to be able to 
make a decision on opting in or opting out of the State radio 
access network portion of the FirstNet build-out.
    Mrs. Brooks. Again, what is your projected time frame as to 
when you think the State consultations might be completed?
    Mr. Kennedy. Sure. So the only one I can really comment on 
right now is Phase 1. I believe that in this fiscal year we 
will complete the first Phase 1 for each of the States. Because 
each State is moving at a different time frame, as far as 
checklists and ability to get in, a lot of it is also at the 
mercy of when States are ready to have those conversations.
    Mrs. Brooks. How many States have submitted their 
checklists?
    Mr. Kennedy. Thirty-two.
    Mrs. Brooks. Okay. Okay. Thank you. With that, the 
Chairwoman now recognizes the gentleman from New Jersey, Mr. 
Payne, for questions.
    Mr. Payne. Thank you, Madam Chairwoman.
    Mr. Grubb, in your testimony, you note that it is critical 
that the existing communications governance structures such as 
State-wide interoperability governance bodies be leveraged as 
States prepare for broadband and NG 9-1-1. From your 
perspective, as the chair of the National Council of State-wide 
Interoperability Coordinators, to what degree are States 
leveraging resources of these existing governing bodies as 
emergency communications technology evolves?
    Mr. Grubb. Thank you, Mr. Payne. I can speak especially for 
Delaware, where the--we leverage our State governing body quite 
heavily, and in most States--not most States--in some States, 
they do, as well. That coordination helps significantly, 
because in that governing body, it is chaired by the secretary 
of safety and homeland security, and he reports to the 
Governor, so he is a voting member. There are 14 other voting 
members from agencies throughout the State of Delaware.
    We have leveraged that for our broadband working group for 
FirstNet. So it has helped--it has helped quite a bit. There 
are a lot of States that have started to look at that structure 
as they move into FirstNet.
    Mr. Payne. Okay. You know, Federal support for emergency 
communications governance infrastructure, from the 
interoperable emergency communications program to UASI and the 
State homeland security grant program, has diminished in recent 
years. Today, I am introducing, as I stated, the SWIC 
Enhancement Act, which aims to preserve advances in emergency 
communications, governance achieved over the past decade.
    Can you talk about the degree to which the success of the 
current efforts at enhancing interoperability are dependent on 
these governance structures being in place, particularly with 
the evolving broadband capabilities needing to be integrated 
into the existing land mobile radio capabilities?
    Mr. Grubb. Yes, sir. First of all, I would like to take 
this time to thank you for introducing that bill, that SWIC 
bill. It is of significant help to the SWIC community and 
something we talk about quite a bit. Next, in a couple of 
weeks, the SWICs and SAFECOM will get together in Norman, 
Oklahoma, and I can tell you that they will be thrilled with 
hearing that news, so thank you very much.
    From a coordination standpoint, you know, SWICs now focus 
more on FirstNet. They need to maintain that interoperability. 
One thing I have to say that is extremely important from a 
communications standpoint and interoperability is that land 
mobile radio, the networks that our first responders use for 
mission-critical voice, they are critical to be maintained for 
the foreseeable future.
    That is one thing that I say in almost every meeting that I 
am a part of in the State of Delaware and elsewhere, is that 
although broadband will--FirstNet will bring data--and it is 
needed--mission-critical voice is the first thing that our 
first responders go to when they are an emergency situation. We 
had an officer in Delaware who was unfortunately killed in the 
line of duty years ago. He was stabbed by an assailant in the 
neck. Before he passed on the street, the first thing he 
reached for was his radio.
    We need to maintain those radio systems and move into 
broadband so it provides additional data and additional 
resources for our first responders.
    Mr. Payne. Thank you.
    Mr. Kennedy, the State of New Jersey was awarded a 
Broadband Technology Opportunities Program, or BTOP, grant in 
2010, and the FirstNet license--the frequency spectrum to the 
State to build the network in December of last year. Can you 
talk about the status of this project and how will FirstNet use 
the lessons learned from New Jersey's BTOP grant project to 
inform and develop a Nation-wide network?
    Mr. Kennedy. Absolutely, Ranking Member Payne. The 
deployable networks that the State of New Jersey are deployment 
as part of this key project are what we refer to as cells on 
wheels, often called COWs, and systems on wheels. These key 
systems really help out emergency providers both with big 
events, like the Super Bowl or events like that, that might 
occur, as well as large events that are unplanned for but also 
recur on a regular basis, like hurricanes, like you experienced 
with Hurricane Sandy.
    The goal of the proof of concept network is really focused 
on three regions in New Jersey, the route 21 corridor, as well 
as in southern New Jersey in Camden and Atlantic City on the 
shore. All three of those will be key locations for us as we 
move forward to really see the different experiences we can get 
from those three geographic locations, and then that unique 
capability to be able to deploy to emergencies and respond to 
things like hurricanes, with additional broadband capability.
    To the point mentioned a little bit earlier from Admiral 
Hewitt is having an ability with that dedicated spectrum that 
can make a difference during some of these very large events. 
So we prime to really leverage those key learning conditions. 
New Jersey is on track to complete that project on time, which 
is September 2015.
    Mr. Payne. From what I understand in discussions with 
Homeland in the State of New Jersey, we are very proud of the 
work and accomplishments and the programs that we have made 
there and are really looking forward to implementing, want to 
be the first, so we continue to work hard on that.
    Madam Chairwoman, I will yield back at this time.
    Mrs. Brooks. Thank you. At this time, we will start a 
second round of questioning. Mr. Grubb, you have the benefit of 
being both the SWIC, as well as what is called the SPOC. Any 
other acronym names you might have? But the SPOC is the 
FirstNet single point of contact for Delaware, as I understand, 
besides being the SWIC.
    Can you--and I don't know whether or not many SWICs are 
SPOCs, as well, in other States--I am curious about that--but 
can you please share with us, what is your assessment of 
FirstNet's and OEC's outreach with the SWIC and SPOC 
communities? You know, what is going well and what can be 
improved? Since you are getting ready to go to a National 
conference, I am sure that is a huge part of the discussion. So 
can you share with us what you and your colleagues are 
experiencing with respect to outreach?
    Mr. Grubb. Yes, ma'am, thank you. So the first part of your 
question, in 18 States and the District of Columbia, the SWIC 
is also acting as the SPOC. In 12 States, the SWIC and SPOC 
both work within the same department; in 25 States, the two 
roles are completely separate. So that gives you a little bit 
of a picture there.
    I think, from my vantage point being the SWIC and the SPOC, 
and being on the 9-1-1 board, is significantly useful, because 
I get an overview of that entire landscape, and that is helpful 
in guiding resources and getting, you know, the little bit of 
funding that we do have where it needs to go. So that is 
significantly helpful.
    Working with--let me start with OEC--working with the 
Office of Emergency Communications, Admiral Hewitt and his 
staff, is absolutely unparalleled. It is incredible. They are 
customer-driven and customer-focused. I could line up every 
SWIC in the United States and they would say exactly the same 
thing.
    So I would like to congratulate the admiral and his team on 
the efforts that they have put through since 9-1-1. That is why 
the SWIC community is where it is today, and the outreach that 
we have been able to do is largely a part of their strong 
efforts over the past several years.
    With FirstNet, the effort is also tremendous. TJ and his 
staff, they work tirelessly to bring broadband for public 
safety to--you know, to reality, and that I commend them on. I 
think that--as an independent authority, one of the things that 
holds them back is Federal regulations and hiring regulations. 
If they could get past that a little bit, I think that has held 
them back in hiring good candidates to help bring FirstNet even 
faster forward.
    Mrs. Brooks. Can you--or maybe Mr. Kennedy should delve 
into that a little bit further. What regulations are you 
referring to? Or Mr. Kennedy? That might be hindering faster 
implementation.
    Mr. Grubb. I know it is--but I know Mr. Kennedy can answer 
that a little better.
    Mrs. Brooks. Thank you.
    Mr. Kennedy. To Mark's comment, I think one of the things 
that we have realized as an independent authority inside the 
Federal Government is the Federal hiring process sometimes 
takes a little longer than we would like to see. One of the 
things that we have tried to do is make sure we get a lot of 
key technical talent and public safety talent into these key 
positions.
    So as we look to staff our regions across the country, it 
has taken longer to get some of the key personnel into those 
positions and the key talent that we need on-board. We are 
continuing to move forward with requests for direct hiring 
authority from the Office of Personnel Management and really 
trying to make sure that we move forward with swiftness to be 
able to get the right staff onboard that will help States like 
Mark and the State of Delaware and others work through 
consultation.
    Mrs. Brooks. So when you request direct hiring authority 
from OPM, what is the manner of authority that you have now?
    Mr. Kennedy. We currently do not have any direct hiring 
authorities at this point. We are currently working in the 
typical OPM hiring system for Federal employees.
    Mrs. Brooks. Okay. Is there anything further beyond hiring, 
Mr. Grubb, that you would like to share with respect to 
outreach efforts from FirstNet?
    Mr. Grubb. Only to reiterate that their office is excellent 
at outreach, helping us outreach to our folks. We have been on 
the message of FirstNet for a couple of years now, and with the 
change in leadership and with some--I think it has been a 
little bit slow, to be honest, but it is understandable due to 
the size of the project that they are undertaking. It is 
astronomical.
    But I think our folks in the State are getting just a 
little bit leery of the message that FirstNet is coming. It 
needs--you know, we need to get it here.
    Mrs. Brooks. Okay. Thank you. In light of the accolades you 
have given OEC in particular with respect to their work with 
you, I have to share that there is a rumor surfacing that the 
Department of Homeland is considering moving OEC from the 
National Protection and Programs Directorate into FEMA. It is 
my understanding that members of the public safety community 
are quite concerned about this.
    Admiral Hewitt, do you know--does the Department have plans 
to move--restructure and move OEC?
    Admiral Hewitt. Thank you, Chairwoman Brooks. As you may 
know, the Department of Homeland Security is undergoing a Unity 
of Effort analysis to improve mission delivery through 
cooperation and collaboration across the components. In their 
effort, though, there has been no decisions on any change 
within the National Protection and Programs Directorate, which 
I am a part of, or the Office of Emergency Communications.
    If any--you know, before any decisions would be made, we 
would be up here first and consulting with you, just because of 
the legislation. It says we work for the Office of 
Cybersecurity and Communications. We would be happy to meet 
with you at any time to get your recommendations on how to do 
improvements.
    Mrs. Brooks. Thank you. Right answer on consultation. Just 
wanted to make sure that Department of Homeland Security 
remembered how the office was set up. Since it is working so 
well, we look forward to having that discussion prior to any 
reorganization.
    With that, my time is up, and I turn it over 5 minutes' 
more questioning to Congressman Payne.
    Mr. Payne. Thank you.
    Admiral Hewitt, in your testimony, you talked about the 
importance--the contributions the SWICs have made in advancing 
our interoperability goals. As you know, I am introducing 
legislation today that I hope will help States preserve and 
build on that progress. Have you reviewed this legislation? You 
know, I would look forward to counting on you to work with me 
to make sure that the progress that, you know, has been 
achieved with respect to interoperability is not lost as grant 
funds become more scarce.
    Admiral Hewitt. Thank you, Ranking Member Payne. As I 
mentioned, the Secretary of Homeland Security just signed the 
2014 National Emergency Communications Plan, and for us to 
successfully implement it, it is going to require every--all 56 
States and territories to update their governance structures, 
to update their plans, and then to execute those plans, so your 
support and understanding how important a role a SWIC is--just 
like at the National level OEC is kind of that coordinating 
body. Every State needs to have that coordinating body.
    Just to give you an example, FCC manages over 126,000 
public safety land mobile radio licenses. Every organization 
owns their own land mobile radio. That is why we have this 
interoperability problem. When they are working and they are 
doing their training and exercises, generally organization-
centric, and having someone overriding that and say, hey, make 
sure you look out for when that incident occurs that is multi-
discipline, multi-jurisdictional, to be focused on that and 
making sure that your systems interoperate is critical. So 
thank you for your leadership in moving this forward.
    Mr. Payne. So what happens? What do you do where there 
isn't a SWIC in place?
    Admiral Hewitt. There is--in 2010, we had 44 full-time 
SWICs. Just March of this year, it is down to 26. But there are 
part-time SWICs in all States, so we do have someone part time. 
It is just--and Mr. Grubb could probably answer that better, 
but I definitely think there is a difference being able to 
dedicate your time and then--and having a bunch of things on 
your plate.
    Mr. Payne. Okay. Mr. Grubb.
    Mr. Grubb. I will go to Arizona as an example. Prior to the 
IECGP being lost, Arizona had a significant SWIC office. They 
honestly led the country in the way they were able to bring 
through COML training programs, COMT programs, coordination, 
oversight of technology. It was impressive. Now that really has 
gone away. That office has closed down. Their monthly 
governance structure meetings have gone to 1 per year, if that. 
At this time, the SWIC duties are maybe a quarter duty for the 
person who doesn't--has a full-time job and that happens in a 
significant number of States now.
    It is--that split focus, it does not help, you know, 
interoperability moving forward. It really doesn't. Those are 
the things that we saw prior to 9/11 is there was no 
coordinator. Again, to my testimony, there was no champion of 
coordination for the States, and we are heading back in that 
direction unfortunately.
    Mr. Payne. So do you feel that the SWIC should be a full-
time position?
    Mr. Grubb. The SWIC should definitely be a full-time 
position. Not only should it be a full-time position, I think 
key is that the SWIC must be high enough level in State 
government to have effect on the outcome of this situation. 
What we have seen across the country is where SWICs have a 
director level or above position. They are much more effective 
in coordinating efforts of communications and interoperability 
across State government and county and so on and so forth.
    Where we see a lower-level SWIC is where, you know, they 
are brushed under the table for the most part, and they are 
just not nearly effective, so that is a--you know, two-part 
answer, really. Yes, full-time SWICs and they have to have a 
high-enough position in State government.
    Mr. Payne. Well, in your position, you wear more than one 
hat. You are the SWIC, correct?
    Mr. Grubb. I am. I am the SWIC for Delaware. I am also the 
director of the division of communications, so we oversee the 
800-megahertz radio systems for the State of Delaware. However, 
most of my focus on a daily basis is SWIC-related, so I have a 
team of people who focus on the operation of our mission-
critical voice system, so there is a structure, but I count 
myself as a full-time SWIC.
    Mr. Payne. Okay. I have another question, but I will yield 
back in the interest of time.
    Mrs. Brooks. Thank you. I think we are going to go to just 
one more round of questions. In the 008, Admiral Hewitt, 
National Emergency Communications Plan, OEC set three time-
specific goals, and Goal 3 was that by the end of 2013, 75 
percent of all jurisdictions would demonstrate response-level 
emergency communications within 3 hours in the event of a 
significant incident.
    Was this one of the 90 percent of the goals in the new NECP 
reported as achieved? Isn't 3 hours a seemingly long time to 
set up a response? Can you comment on that? Are you still using 
the 3-hour window in the new plan?
    Admiral Hewitt. I thank you, Chairwoman Brooks. Actually, 
the new plan--the goals that we have in there are higher-level. 
They are more strategic, because the landscape of emergency 
communications is much broader now. The first plan was geared 
towards land mobile radio, and it was geared government to 
government, or really response coordination between public 
safety officials.
    But with the Boston bombings and other recent events, the 
landscape of emergency communications is expanded, next-
generation 9-1-1. The biggest thing that I am most concerned 
with, lose sleep on, is the fact that there is a bomber that 
gets on a metro that someone is able to take a picture of, and 
that picture isn't able to go through NG91 to FirstNet and then 
out to alerts and warnings. We have to now open the aperture 
and make sure we have that interoperability of information and 
information services with that.
    Mrs. Brooks. How did you engage the private sector as you 
worked to update the NECP?
    Admiral Hewitt. Thank you again for that question. We 
have--as the communications sector-specific agent for critical 
infrastructure in the comm sector, we briefed them on--we had 
over 80 private and commercial carriers involved in the plan. 
We have briefed them on and get their inputs. So we could bring 
them in, because they are going to be--as I mentioned, the 
ecosystem for emergency communications is expanding. Really, we 
have got to even ensure citizens have the ability to 
communicate.
    Mrs. Brooks. Okay, thank you. Mr. Kennedy, we hear a lot 
about spectrum monetization and the need for FirstNet to 
ultimately be self-funded. Who do you see as consumers of 
excess capacity on the FirstNet network? How do you plan to 
ensure that public safety has adequate priority usage of the 
network, if and when we go to spectrum monetization?
    Mr. Kennedy. So kind-of two key elements to that question. 
I think, first off, on the--guaranteeing public safety 
prioritization, it is a key part of what we are doing in 
consultation. In consultation, we are covering really seven key 
elements--construction of the core and the radio access network 
build-out, placement of towers, coverage areas, adequacy of 
hardening security and reliability, assignment of priority. So 
key to that element is being able to have that priority 
capability and then really assigning priority and selecting 
users in training.
    Those elements, though, of having that priority network is 
being built in from the ground up. So we have currently worked 
with our public safety communications research lab in Boulder, 
as well as our technical team, to test the priority functions 
that are needed on the network. The testing has been extremely 
positive. We have seen very good results from that. We will be 
building that into our RFP, so that the network will be built 
with that key priority in mind.
    As far as the monetization of the network, the goal for 
sustainability is to have the ability for covered leasing 
agreements and having the ability to leverage parts of the 
network that are not being fully utilized on a day-to-day 
basis. We are building that into both our strategic plan and 
into our RFP process. We are very pleased with the current 
other spectrum auctions that are separate from our monetization 
that would occur as part of the secondary capacity on the 
network, and we have seen very good results from them. Because 
of that, we are encouraged that we will have additional funding 
to help support the network going forward.
    Mrs. Brooks. Thank you. Mr. Grubb, what challenges has 
Delaware faced, as was mentioned by Admiral Hewitt, while 
transitioning from 9-1-1 to next-gen 9-1-1?
    Mr. Grubb. We are right in the middle of that transition. 
So we are finished with our RFP. Moving forward, here in a 
couple of weeks, the board will vote on a solution, it appears. 
I think really the challenge is to make sure that everybody 
understands this is an evolutionary process. It will take some 
time to work.
    I mean, this year, the wireless carriers were mandated to 
be able to serve and text to 9-1-1 centers. To my knowledge, 
from speaking to my colleagues across this country, where the 
few places that text to 9-1-1 is available, they only get very 
few texts, a couple. So it is--you know, that was interesting 
to me, I thought.
    But it does, you know, lead you to understand that it is an 
evolutionary process. Even though we think that, you know, 
everybody wants to text to 9-1-1, they still prefer to call to 
9-1-1. So we will get to text to 9-1-1. Then we will be texting 
pictures to 9-1-1. Then we will be texting eventually with 
broadband full video.
    My concern--once we get to that point--is that the 
education for the call-takers, that is a whole different level 
of education that we have to contemplate now, because it is one 
thing to hear an emergency call, but it is completely another 
thing for them to view a crime taking place. So that is going 
to be part of that evolutionary process, so that--those are the 
challenges with the migration.
    Mrs. Brooks. Thank you very much. I need to suspend for 2 
minutes to run down and place a vote, and I will return. The 
subcommittee will recess, subject to the call of the 
Chairwoman. Be right back.
    [Recess.]
    Mrs. Brooks. The subcommittee will reconvene. Thank you for 
that. Let me catch a breath.
    Congressman Payne, 5 minutes of questions.
    Mr. Payne. Okay, thank you, Madam Chairwoman. Mr. Kennedy, 
first responders and public safety officials will be FirstNet's 
primary customers. How is FirstNet utilizing the Public Safety 
Advisory Committee? What tasks have been assigned or undertaken 
by the Public Safety Advisory Committee?
    Mr. Kennedy. The Public Safety Advisory Committee really 
leverages the great work that has been done in SAFECOM by a 
number of the same members that we have mirrored with our 
public safety advisory committee. They have looked at a number 
of key factors and are taking on some of the most important 
elements that are operational to the future of FirstNet.
    A good example of one of the roles they played is they 
created use cases for how public safety will utilize the first 
responder network and how that will be--in an operational 
sense--marrying technology with public safety operations. Those 
use cases have become a basis for our technical team to build 
requirements and objectives around--that become part of our RFP 
process.
    A really critical point, is when you look at how a police 
officer, a firefighter, a paramedic will operationalize the use 
of this new technology. So those use cases by the public safety 
advisory committee have been extremely beneficial to that work.
    They have also looked at important issues like hardening 
and looking at resiliency and what we need to do to be 
resilient in building this network. They have also looked at 
key issues when it comes to defining a public safety user.
    One of the things we did was work with the PSAC on some of 
our initial understandings to create our public notice and 
comment on public safety users to make sure that we are being 
very transparent and working with both the public safety 
advisory committee and the public in general on who will 
utilize the network and how will they utilize the network.
    So I think we have done a great job of engaging with the 
public safety advisory committee. Our next meeting is coming up 
in just a few weeks in Norman, Oklahoma. We actually often put 
these meetings right next door to the SWIC meetings that are 
happening, as well, with SAFECOM, so that we have the key 
players around the country from the 56 different States and 
territories that are a part of that key discussion along with 
the public safety advisory committee meeting in the same 
locations at the same time during that same week. They have 
really been a terrific help.
    Chief Harlin McEwen has led that public safety advisory 
committee for FirstNet and the passion that we see from the 
vast representation across public safety that are part of the 
advisory committee has been a great help to FirstNet.
    Mr. Payne. Thank you. You know, I understand that the RFI 
issue in September sought feedback on how to harden the public 
safety broadband network against cyber attack. Can you talk 
about the efforts being considered to harden the network 
against cyber attacks?
    Mr. Kennedy. Cybersecurity, as you know, is a critical 
priority for all of us in public safety and in the Federal 
Government. We have been working very closely with a lot of the 
cybersecurity best practices from the Department of Homeland 
Security, working with Admiral Hewitt's team and others to make 
sure that we are leveraging those centers of excellence. We 
have also brought onboard full-time staff that are focused on 
cybersecurity.
    For us, we are leveraging, how will this work in the new 
mobile environment going forward? Working with many different 
levels of agencies. So looking at city agencies, county 
agencies, and State agencies, and how do they get access to key 
law enforcement information, as well as deal with, you know, 
key information that needs to be kept safe, such as, you know, 
emergency medical service records and other things that would 
go across the network? So for us, cybersecurity has been at the 
foremost of our requirements as we build our key RFP objectives 
going forward for FirstNet.
    Mr. Payne. Okay, thank you. I think I had one more. Mr. 
Kennedy, we are sticking with you.
    Mr. Kennedy. It is okay.
    Mr. Payne. You know, as Mr. Grubb observed, you know, SWIC 
may not always be the FirstNet single point of contact. What is 
FirstNet doing to encourage coordination particularly in those 
States where those positions are in separate agencies?
    Mr. Kennedy. We are doing a number of things. Just like the 
example with trying to have meetings that are co-located, where 
a lot of the State-wide interoperability coordinators will be 
to make sure there is good open communication. We also work 
with all of the single point of contacts regardless of their 
background to work on who should be invited to key meetings. 
They obviously have their own discretion, but we certainly ask 
them to engage the SWICs, and we want them to engage heavily on 
those key conversations.
    Also, with the different SPOC backgrounds that are out 
there, most of them are very much engaged in public safety 
across the States. Sometimes it is a key State public safety 
official, such as from the State police. Sometimes it is the 
homeland security adviser. Sometimes it is the State CIO. But 
they are often very well connected with key communications 
officials, both in public safety and in State and local 
government.
    So we found a lot of good coordination in reaching out to 
the SWICs and others to make sure that there is open 
communication going on at all times on what is happening with 
FirstNet.
    Mr. Payne. Thank you. Well, I would like to thank all the 
witnesses for their testimony today. I will yield back.
    Mrs. Brooks. Thank you. I, too, would like to thank all of 
the witnesses for their testimony. Sorry, this has been a bit 
of a choppy hearing, and I know we had a bit of a delay in 
beginning. Again, this was rescheduled. But really want to 
thank all of you for your work. I can think of--for all of our 
first responders, nothing is more important--truly, they can 
have all the equipment in the world, incredible equipment, but 
unless they can arrive on the scene or if they are on the scene 
when an emergency occurs, if they can't communicate, they won't 
be successful.
    We have come a long way since 9/11. But we obviously--as 
you all have indicated--have a long way to go, and we must stay 
at it. I just want to also thank Congressman Payne for his work 
on this critically important issue. This has been a top issue 
for him from the beginning. I want to thank you for your work. 
It has been an enjoyable 113th Congress, working together on a 
lot of important bipartisan legislation. We still need to get 
some through the Senate, I might add. Hope that we can do that.
    But I also--while I don't have the slick, pretty copy, you 
know, getting the National Emergency Communications Plan done 
for 2014 is, I think, also a great accomplishment for the 
subcommittee and working with Homeland Security. But just 
always reminding the Federal agencies that it is our local 
partners on the ground that we need to, as well as the private 
sector with all of their innovation, that we need to make sure 
we are always listening to them as to what they need and what 
they can provide and certainly what our first responders need. 
So I want to thank you all very much.
    The Members of the subcommittee may have additional 
questions for the witnesses, and we will ask you to respond to 
these in writing, if you should receive any. Pursuant to 
Committee Rule 7(e), the hearing record will be open for 10 
days. Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:32 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
